■>:

No .

IN THE
SUPREME COURT OF THE UNITED STATES

DRASHAWN BARTLETT/ Petitioner
v.
ANNA VALENTINE/ Warden/ Respondent

ON PETITION FOR WRIT OF CERTIORARI TO.
SIXTH CIRCUIT COURT OF APPEALS

APPENDIX

APPENDIX A
Bartlett v. Valentine/ No. 20-558.0, November
3,
2020,
Sixth
Circuit
Order
denying
certificate of appealability......................................

1

APPENDIX B
Bartlett v. Valentine,
May 4, 2020, District
writ of habeas corpus.

No. 3:15-cv-366-RGJ,
Court Order denying
.............................................

5

v.
Bartlett
Commonwealth,
2014
Ky.
App.
Unpub. LEXIS 1004, December 24, 2014, Opinion
of the Kentucky Court of Appeals denying
post-conviction relief.
..........................................

19

APPENDIX C

APPENDIX D
Bartlett v. Valentine, No. 20-5580, January
8, 2021, Sixth Circuit Order denying petition
for rehearing.
........................................................... ..

23

1

No. 20-5580

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
DRASHAWN BARTLETT,
Petitioner-Appellant,
v.
ANNA VALENTINE, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Nov 03, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: BATCHELDER, Circuit Judge.

Drashawn Bartlett, a pro se Kentucky prisoner, appeals the district court’s judgment
denying his petition for a writ of habeas corpus under 28 U.S.C. § 2254. Bartlett moves the court
for a certificate of appealability (COA) and to proceed in forma pauperis on appeal.
A jury convicted Bartlett and co-defendant James Girton of second-degree manslaughter
and first-degree robbery. The trial court sentenced Bartlett to twenty-eight years in prison. The
Kentucky Supreme Court affirmed. See Girton v. Commonwealth, Nos. 2007-SC-000289-MR,
2007-SC-000293-MR, 2009 WL 427229 (Ky. Feb. 19, 2009).
Bartlett then filed a motion to vacate his sentence in the state trial court, claiming that he
received ineffective assistance of trial counsel and that his convictions violated the Double
Jeopardy Clause. The trial court denied relief, and the Kentucky Court of Appeals affirmed. See
Bartlett v. Commonwealth, No. 2013-CA-001218-MR, 2014 WL 7339200 (Ky. Ct. App. Dec. 24,
2014). Bartlett did not appeal to the Kentucky Supreme Court.
Bartlett next filed a § 2254 petition in the district court, raising the following claims: (1)
the trial court erred by denying his request for a jury instruction on facilitation; (2) the evidence
was insufficient for the jury to convict him of first-degree robbery; (3) the trial court erred by
admitting irrelevant and prejudicial evidence; (4) the trial court erred by denying his motion to

2

No. 20-5580
-2-

suppress; and (5) his trial attorney was ineffective for not presenting additional mitigating evidence
during the penalty phase of his trial and for not objecting to a jury instruction that resulted in a
double-jeopardy violation.
A magistrate judge filed a report that concluded that Bartlett was not entitled to relief on
the merits of his first, second, and fifth claims; he procedurally defaulted his third claim; and his
fourth claim was not cognizable in federal habeas proceedings. The magistrate judge therefore
recommended denying Bartlett’s petition. The district court adopted the report over Bartlett’s
objections, denied the petition, and declined to issue a CO A.
Bartlett appealed and has filed a CO A application. Bartlett seeks appellate review of only
his claim that he received ineffective assistance of counsel with respect to the alleged double­
jeopardy violation. By limiting his COA application to this issue, Bartlett has forfeited appellate
review of the district court’s resolution of his other claims. See Jackson v. United States, 45 F.
App’x 382, 385 (6th Cir. 2002) (per curiam); Kelly v. McKee, 847 F.3d 316, (6th Cir. 2017).
A COA may be issued “only if the applicant has made a substantial showing of the denial
of a constitutional right.’' 28 U.S.C. § 2253(c)(2). To satisfy this standard, the applicant must
demonstrate that “jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
The state grand jury charged Bartlett with capital murder for killing Adolfo Jiminez
intentionally or wantonly under circumstances manifesting extreme indifference to human life.
The grand jury also charged Bartlett with first-degree robbery for being armed with a deadly
weapon or causing physical injury to Jiminez in the course of committing a theft. As to the murder
charge, the trial court instructed the jury that it could find Bartlett guilty of the lesser-included
offense of second-degree manslaughter, but only if it found that he was guilty of robbery. See
Bartlett, 2014 WL 7339200, at *2. And the trial court instructed the jury, that to find Bartlett
guilty of robbery, it had to find that he used a weapon or caused a physical injury to Jiminez. See
id. As stated, the jury convicted Bartlett of second-degree manslaughter and robbery. The

3

No. 20-5580
-3-

Kentucky Court of Appeals rejected Bartlett’s claim that these convictions violated the Double
Jeopardy Clause because the death of the victim is an element of manslaughter, but not of robbery,
and theft is an element of robbery, but not of manslaughter. See id.
As the district court noted, the Kentucky Court of Appeals essentially applied the doublejeopardy rule from Blockburger v. United States, 284 U.S. 299 (1932), which states that “where
the same act or transaction constitutes a violation of two distinct statutory provisions, the test to
be applied to determine whether there are two offenses or only one, is whether each provision
requires proof of a fact which the other does not.” Id. at 304. And because the two offenses do
not require proof of the same facts, the district court concluded that Bartlett failed to satisfy the
Blockburger. test. The district court also rejected Bartlett’s contention that by acquitting him of
murder, the jury impliedly acquitted him of robbery because robbery was a necessary element of
the manslaughter charge. And because Bartlett failed to establish an underlying double-jeopardy
violation, the district court concluded that his attorney did not perform ineffectively by failing to
raise a double-jeopardy objection to his robbery conviction.
In his COA application, Bartlett’s double-jeopardy claim rests solely on whether the jury
impliedly acquitted him of manslaughter and robbery when it acquitted him of murder. See
Saulsberry v. Lee, 937 F.3d 644, 649 (6th Cir.) (discussing implied acquittals), cert, denied, 140
S. Ct. 445 (2019). He.argues that because robbery was an essential element of both murder and
manslaughter, his acquittal on the charge of murder implicitly acquitted him of robbery, which in
turn implicitly acquitted him of manslaughter. Supreme Court precedent forecloses this argument,
however. See Ohio v. Johnson, A61 U.S. 493, 501 (1984) (“Respondent’s argument is apparently
based on the assumption that trial' proceedings, like amoebae, are capable of being infinitely
subdivided, so that a determination of guilt and punishment on one count of a multicount
indictment immediately raises a double-jeopardy bar to continued prosecution on any remaining
counts that are greater or lesser included offenses of the charge just concluded. We have never
held that, and decline to hold it now.”). Consequently, the jury’s not-guilty verdict on the murder
charge did not implicitly acquit Bartlett of manslaughter and robbery, and therefore his convictions

4

No. 20-5580
-4-

did not result in a double-jeopardy violation. Thus, reasonable jurists could not disagree with the
district court’s conclusion that Bartlett’s attorney did not perform ineffectively by not raising a
double-jeopardy objection to his convictions.
Accordingly, the court DENIES Bartlett’s COA application and DENIES as moot his
motion to proceed in forma pauperis.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case 3:15-cv-00366-RGJ-HBB Document 23

Filed 05/04/20 Page 1 of 14 PagelD #: 693

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
DRASHAWN BARTLETT

Plaintiff

v.

Civil Action No. 3:15-CV-00366-RGJ

AARON SMITH,
WARDEN

Defendant
* * * * *

ORDER

This matter is before the Court on Drashawn Bartlett’s (“Bartlett”) Objections toMagistrate Judge H. Brent Brennenstuhl’s (“Magistrate Judge”) Report and Recommendation
(“R&R”) denying his petition for writ of habeas corpus made pursuant to 28 U.S.C § 2254
(“Petition”). Respondent, Aaron Smith has not filed a response, and the time for doing so has
expired.

This matter is now ripe, and for the reasons stated below the Court DENIES

Bartlett’s Objections and ADOPTS the R&R. Bartlett also seeks appointment of counsel to
assist with additional briefing on the R&R. [DE 22], The Court does not require more
O

briefing, and therefore, Bartlett’s Motion to Appoint Counsel, [DE 22] is DENIED.
I.

Background
Bartlett and his co-defendant James Girton (“Girton”) were convicted of first-degree

robbery and second-degree manslaughter following a two-week trial in Jefferson County
Kentucky Circuit Court. [DE 17 at 626-27]. Bartlett appealed, and the Supreme Court of
Kentucky affirmed his conviction. [Id. at 631], Bartlett then filed a petition for rehearing,
which the Supreme Court of Kentucky denied, and which rendered the judgment final. [Id.].
Bartlett filed a motion to vacate, set aside, or correct his sentence pursuant to Ky. R. Crim. P.

1

5

Case 3:15-cv-00366-RGJ-HBB. Document 23 Filed 05/04/20 Page 2 of 14 PagelD #: 694

11.42 with the Jefferson County Circuit Court. [Id. at 631—32], After an evidentiary hearing,
Bartlett s motion was denied. [Id.]. Bartlett appealed to the Court of Appeals of Kentucky,
who affirmed the order of the Jefferson Circuit Court and denied Bartlett’s motion for
reconsideration. [Id. at 632], On May 14, 2015, Bartlett filed this action seeking habeas relief
under §2254. [Id.\.
The Petition alleged five violations of Bartlett’s due process rights as grounds for
relief: 1) the trial court refused to instruct the jury on facilitation as a lesser included offense
to robbery, 2) the trial court denied his motion for directed verdict on the robbery in the firstdegree charge; 3) the trial court improperly admitted irrelevant and unduly prejudicial
evidence against him; 4) the search warrant for his apartment was invalid and his statement
to police was not voluntary; 5) his counsel was ineffective for failing to present mitigating
evidence at sentencing and for failing to object to jury instructions that subjected him to
double jeopardy. Only the second and fifth grounds are at issue here.
The Magistrate Judge found Bartlett was not entitled to habeas relief and
recommended denying the Petition. [Id. at 650], He also recommended that the Court deny
a Certification of Appealability. [Id:]. Bartlett objects to two of the findings in the R&R: 1)
that Bartlett’s due process rights were not violated when the trial court denied his motion for
directed verdict on the charge of robbery in the first degree; and 2) that Bartlett’S counsel was
not ineffective for failing Jo raise the double jeopardy argument. [DE 20]. The R&R includes
the factual findings made by the Supreme Court of Kentucky. As a result, the Court will
include only those facts relevant to the determination of Bartlett’s stated objections to the
R&R.

2

6

Case 3:15-cv-00366-RGJ-HBB Document 23 Filed 05/04/20 Page 3 of 14 PagelD #: 695

Adolfo Jimenez was shot and killed at his home in the Arcadia Apartments. [DE 17
at 627], Bartlett and Girton were suspects in the murder and later charged with the murder
and robbery. [Id.]. During the investigation and at trial both Bartlett and Girton gave several,
differing statements.
Although their accounts diverged slightly, both Bartlett’s and Girton’s-version of
events generally were consistent that on the day of the shooting Bartlett’s grandmother, with
whom Bartlett had previously lived, offered to bring some of the"clothes that he had left at
her home to his new apartment. [Id.]. They arranged to meet at a convenience store, and
Bartlett asked to borrow a friend’s car in order to drive there. [Id.]. Girton accompanied
Bartlett. They first drove to the agreed upon convenience store, but then decided to drive to
Bartlett’s grandmother’s house to try to catch her before she left. [Id. at 628], They drove to
Bartlett’s grandmother’s home, which is located about a block from Jimenez’s apartment, but
she was not there. [Id.].
The following events remain in dispute. Bartlett’s first statement to police suggested
that once he and Girton determined Bartlett’s grandmother was not home, they decided to
drive through the neighborhood. [Id.]. They had planned to meet a couple of Bartlett’s friends
in front of Jimenez’s apartment building. Once they parked, “Girton suddenly told Bartlett to
‘hold on,’ and without explaining what he was doing exited the vehicle, hurried across the
street, and entered the building.” [Id.]. Bartlett said that when he looked up a moment later,
he could see Girton “tussling” with another man through a window in the apartment’s door.
He moved the car forward. Then Bartlett claims he heard a shot, after which, “Girton came
running from the building and jumped into the car, exclaiming that the other man had tried to
stab him. Bartlett claimed that he panicked at that point and drove off.” [Id.].

3

7

Case 3:15-cv-00366-RGJ-HBB Document 23 Filed 05/04/20 Page 4 of 14 PagelD #: 696

/

Girton also gave an initial statement. Girton agreed that Bartlett was the one driving
that night and that Bartlett could not have known why Girton suddenly got out of the car.
[Id.]. Girton explained that “two or three weeks earlier Jimenez had robbed him at knife point
behind the Arcadia apartments, and that when he caught sight of his assailant entering the
apartment that night he had suddenly decided to retaliate.” [Id.]. Girton’s explanation for
what happened inside the apartments was that “when he confronted Jimenez in the foyer of
his building, Jimenez reached as though for a weapon, whereupon Girton shot him in the leg
and ran away.” [Id.].
The officers investigating the shooting found both Girton’s and Bartlett’s version of
events to conflict with other evidence in the investigation. [Id.]. When confronted with the
inconsistencies, Bartlett and Girton offered additional statements to the police. In the second
statements, both Bartlett and Girton admitted the “the other, at least, had had robbery in
mind.” [Id. at 629], Bartlett claimed that Girton had said that he “felt like robbing somebody.”
[Id.]. Bartlett claimed that did not take him seriously, and he did not know what was going
on until Girton got back into the car. [Id.].
Girton, on the other hand, claimed that robbery was Bartlett’s idea. Girton claimed
that at first, “he had not felt ‘up to’ a robbery, but when he saw his former assailant he decided
to go through with it. His intention, he said, was to rob Jimenez and to scare him, but when
he thought that Jimenez was reaching for a weapon he shot him and fled.” [Id.].
At trial, both Bartlett and Girton testified. Bartlett’s testimony generally adhered to
the second statement that he gave to police. [Id. at 630], Girton’s testimony, however, was
substantially different. [Id.]. His trial testimony differed from his earlier statements in that
at trial Girton claimed that he was the one driving the car and the reason they were at the

4

8

Case 3:15-cv-00366-RGJ-HBB Document 23 Filed 05/04/20 Page 5 of 14 PagelD #: 697

Arcadia apartments was because Bartlett had told him to drive to there to get a key to his
grandmother’s house from one of Bartlett’s cousins. [Id.]. Girton claimed that he waited in
the car while Bartlett went into the building. [Id.]. He heard a gunshot and “[ljooking up, he
saw Bartlett running from the building, so he pulled the car out of the parking space and in
response to Bartlett’s frantic, ‘Go, man, go!’ had panicked and sped off . . .” [Id.]. Girton
testified that he agreed to “take the case,” because they believed that since he was a juvenile
his punishment would be less severe. [Id.].
. At trial, the government argued that it did not really matter which of the two had pulled
the trigger, because, evidence showed that both defendants planned and participated in an
armed robbery that turned into a wanton murder. [Id.]. The court instructed the jury on that
theory but also instructed on the lesser offenses of second-degree manslaughter and reckless
homicide. The jury found both defendants guilty of robbery and second-degree manslaughter.
[Mat 630-31],
II.

Standard of Review
A district court may refer a motion to a magistrate judge to prepare a report and

recommendation. 28 U.S.C. § 636(b)(1)(B); Fed. R. Civ. P. 72(b)(1). “A magistrate judge
must promptly conduct the required proceedings . . . [and] enter a recommended disposition,
including, if appropriate, proposed findings of fact.” Fed. R. Civ. P. 72(b)(1). This Court
must “determine de novo any part of the magistrate judge’s disposition that has been properly
objected to.” Fed. R. Civ. P. 72(b)(3). The Court need not review under a de novo or any
other standard those aspects of the report and recommendation to which no specific objection
is made and may adopt the findings and rulings of the magistrate judge to which nolspecific
objection is filed. Thomas v. Arn, 474 U.S. 140, 149-50, 155 (1985).

5

g

Case 3:15-cv-00366-RGJ-HBB Document 23 Filed 05/04/20 Page 6 of 14 PagelD #: 698

A specific objection “explains] and cite[s] specific portions of the report which
[counsel] deem[s] problematic.”

Robert v. Tesson, 507 F.3d 981, 994 (6th Cir.

2007) (alterations in original) (citation omitted). A general objection that fails to identify
specific factual or legal issues from the R&R is not permitted as it duplicates the magistrate
judge’s efforts and wastes judicial resources. Howard v. Sec y of Health and Human Servs.,
932 F.2d 505, 509 (6th Cir. 1991). After reviewing the evidence, the Court is free to accept,
reject, or modify the magistrate judge’s proposed findings or recommendations. 28 U.S.C. §
636(b)(1)(C).
Bartlett’s Objections to the R&R are essentially identical to the arguments made in his
initial Habeas Petition. [Compare DE 1-1 with DE 20]. An “objection . . . that merely
reiterates arguments previously presented, does not adequately identify alleged errors on the
part of the magistrate judge.” Altyg v. Berryhill, No. 16-11736, 2017 WL 4296604, at *1
(E.D. Mich. Sept. 28, 2017) (citing Howard v. Sec ’y of Health and Human Servs., 932 F.2d
505, 509 (6th Cir. 1991) (“A general objection to the entirety of the magistrate’s report has
the same effects as would a failure to object. The district court’s attention is not focused on
any specific issues for review, thereby making the initial reference to the magistrate useless.”).
As a result, Bartlett’s general objections and repetition of the arguments made in his initial
Petition cannot qualify as objections. Thus, the Court need not conduct a de novo review of
the Magistrate Judge’s report on Bartlett’s Objections. Ells v. Colvin, No. 3:16-CV-00604TBR, 2018 WL 1513674, at *2 (W.D. Ky. Mar. 27, 2018).
Even though the Court is not required to conduct a full de novo review, the Court has
considered the merits of Bartlett’s Objections and accepts the Magistrate Judge’s proposed
findings and recommendations as well reasoned.

6

10

Case 3:15-cv-00366-RGJ-HBB Document 23 Filed 05/04/20 Page 7 of 14 PagelD #: 699

III.

Discussion
Chapter 153 of the Antiterrorism and Effective Death Penalty Act of 1996, Pub. L.

No. 104-132, 110 Sta. 1214 (1996) (“AEDPA”) governs Bartlett’s claim. Lindh v. Murphy,
521 U.S. 320, 336 (1997). The AEDPA applies to all habeas corpus petitions filed after April
24, 1996 and requires “heightened respect” for legal and factual determinations made by state
courts. See Herbert v. Billy, 160 F.3d 1131, 1134 (6th Cir. 1998). The pertinent section
provides:
An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted with
respect to any claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as.
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d). This standard is “difficult to meet and [is a] highly deferential standard
. . . .” Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (internal quotation marks omitted).
Legal conclusions made by state courts are also given substantial deference under AEDPA.
The Supreme Court has concluded that “a federal habeas court may overturn a state court’s
application of federal law.only if it is so erroneous that there is no possibility fairminded [sic\
jurists could disagree that the state court’s decision conflicts with this Court’s precedents.”
Nevada v. Jackson, 569 U.S. 505, 508-09 (2013) (per curiam) (internal quotation marks
omitted) (quoting Harrington v. Richter, 562 U.S. 86, 101 (2011)). The Court will take
Bartlett’s objections in turn.

7

11

Case 3:15-cv-00366-RGJ-HBB Document 23 Filed 05/04/20 Page 8 of 14 PagelD #: 700

1.

The trial court did not violate Bartlett’s due process rights by
denying his motion for directed verdict on the charge of robbery in
the first degree.

Bartlett first objects to the Magistrate Judge’s finding that Bartlett was not entitled to
habeas relief based on the trial court’s denial of his motion for directed verdict on the charge
of robbery in the first degree. Bartlett does not contest that the Magistrate Judge properly
found that the Supreme Court applied the proper federal law. [DE 20 at 663], Rather, Bartlett
asserts that while “both the state court and Magistrate readily acknowledge that Jackson is
applicable, both fail to consider that as a matter of due process under the Fourteenth
Amendment is the requirement that every element of a charged offense must be proven
beyond a reasonable doubt as set forth in the jury instructions.” [Id.]. He argues that “there
was an absolute failure of proof of theft or attempted theft, an essential element of robbery,”
and the Court erred when it found that “it doesn’t matter whether a theft was actually
committed as long as there was an intent to commit a theft.” .[Id. at 664],
Kentucky’s appellate courts have held that a taking of property is not required for a
crime to qualify as first-degree robbery.” Holbrook v. Com., No. 2013-CA-000094-MR, 2013
WL 5888270, at *2 (Ky. App. Nov. 1,2013) (citing Lamb v. Commonwealth, 599 S.W.2d 462
(Ky. App. 1979)).

That said, there must be some proof that there was some “intent to

accomplish the theft.” Wade v. Com., 724 S.W.2d 207, 208 (Ky. 1986) (“The robbery statute
requires only the use of force ‘in the course of committing theft’ and ‘with intent to
accomplish the theft’”).
Smith cites no evidence in the record to contradict Bartlett’s claim that nothing was
taken from the victim. [DE 9 at 135—39], For that reason, the Court will evaluate whether
there is sufficient evidence to support a finding of “intent to accomplish the theft.” “In

8

12

Case 3:15-cv-00366-RGJ-HBB Document 23 Filed 05/04/20 Page 9 of 14 PagelD #: 701

reviewing the sufficiency of the evidence, ‘the relevant question is whether, after viewing the
evidence in the light most favorable to the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a reasonable doubt.”’ Turner v. Burt, No.
19-1371, 2019 WL 4943759, at *3 (6th Cir. May 24, 2019) (quoting Jackson v. Virginia, 443
U.S. 307, 319(1979)). A federal habeas court ‘does not reweigh the evidence or redetermine
the credibility of the witnesses.’” Simmons v. Schweitzer, No. 16-4170, 2017 WL 4980159,
at *2 (6th Cir. Apr. 5, 2017) (quoting Matthews v. Abramajtys, 319 F.3d 780, 788 (6th Cir.
2003)). “Additionally, circumstantial evidence standing alone if competent, may support a
guilty verdict and is not required to eliminate any reasonable hypothesis except that of the
defendant’s guilt.” Bowen v. Haney, 622 F. Supp. 2d 516, 546 (W.D. Ky. 2008). It is the
province of the fact finder to weigh the probative value of the evidence and resolve any
conflicts in testimony. Neal v. Morris, 972 F.2d 675, 679 (6tl) Cir. 1992).
The Magistrate Judge found that the Supreme Court did not err in concluding that
there was sufficient evidence to support a first-degree robbery conviction because “a rational
juror could have been convinced by Girton’s second statement to police that the robbery was
Bartlett’s idea [and] the pair’s coordinated getaway from the scene could indicate that Bartlett
and Girton intended to rob someone - and Girton’s assault of the victim furthered that
objective.” [DE 17 at 640], The Magistrate Judge found that the “[i]n the light most favorable
to the prosecution, it is clear a rational juror could convict Bartlett of robbery based on this
evidence.” [Id.].
The Court agrees. Girton’s second statement to the police and his trial testimony, in
which he alleges that it was Bartlett’s idea to rob someone, is evidence of robbery. [Id.]. This
evidence is supported by Bartlett’s admission that Girton expressed a desire to rob someone

9

13

Case 3:15-cv-00366-RGJ-HBB

Document 23 Filed 05/04/20 Page 10 of 14 PagelD #: 702

and the coordinated efforts to leave the scene of the shooting. [Id.]. Even though the evidence
was circumstantial, there was sufficient evidence, taken in the light most favorable to the
prosecution, that a rational juror could find Bartlett guilty of first-degree robbery. See Gipson
v. Sheldon, 659 F. App’x 871, 879 (6th Cir. 2016) (upholding conviction of robbery where
defendant did not actively participate in robbery and there was only circumstantial evidence
connecting him to robbery where “specific intent to kill and rob Harper can be reasonably
inferred from Gipson’s presence at the crime scene, his companionship with Ricks, and his
conduct after Harper had been killed”); Pitts v. Wynder, No. 05-CV-01038JF, 2006 WL
2092582, at *7 (E.D. Pa. July 24, 2006) (upholding first-degree robbery conviction where
defendant contends that nothing was taken and there was disputed testimony about whether
there was ever an intent to steal anything because “[t]he record includes trial testimony from
one of the victims, Ms. Green, that petitioner’s co-conspirators threatened her and Mr. Brown
when they herded the victims into an upstairs bedroom and demanded drugs, money, and
guns”). The Court is not permitted to reweigh the evidence, and thus, the Court adopts the
R&R on this issue.
2.

Bartlett’s counsel was not ineffective for failing to raise the
double jeopardy argument.

Bartlett also objects to the Magistrate Judge’s finding that his counsel was not
ineffective for failing to object to the jury instructions on double jeopardy grounds. [DE 20
at 675], Bartlett argues that since the factual basis for the murder charge included the robbery,
when the jury did not find him guilty of the murder charge, it implied they found him not
guilty of the robbery.

For that reason, the jury’s guilty verdict on the robbery charge

constituted double jeopardy. [DE 20 at 675-76]. He alleges that his counsel’s failure to object
to the double jeopardy violation constitutes ineffective assistance of counsel. [Id.].
10

14

Case 3:15-cv-00366-RGJ-HBB Document 23 Filed 05/04/20 Page 11 of 14 PagelD #: 703

The Fifth Amendment provides that no person shall “be subject for the same offense
to be twice put in jeopardy of life or limb.” To determine whether a conviction constitutes
double jeopardy the Court must determine whether, “each offense ‘requires proof of a fact
which the other does not.”’ Reeves v. Campbell, 708 F. App’x 230, 239 (6th Cir. 2017)
(quoting Blockburger v. United States, 284 U.S. 299, 304, (1932)). That the same conduct or
evidence supports two different charges, does not create a double jeopardy violation. Brown
v. Ohio, 432 U.S. 161, 166 (1977). Rather, “[i]f each requires proof of a fact that the other
does not, the Blockburger test is satisfied, notwithstanding a substantial overlap in the proof
offered to establish the crimes.” Id.
As both the Supreme Court of Kentucky and the Magistrate Judge found:
robbery ... requires a defendant commit theft and use or threaten
the immediate use of physical force with the intent of accomplishing
the theft. . . . manslaughter . . . requires the defendant wantonly
cause the death of another person. These charges clearly require
proof of at least one fact which the other does not.
[DE 17 at 649], Additionally, the Supreme Court of Kentucky has specifically found that a
defendant’s double jeopardy rights are not violated when he is charged with both the robbery
and the murder that occurred during the robbery. See Bennett v. Com., 978 S.W.2d 322, 327
(Ky. 1998) (holding double jeopardy did not bar conviction of wanton murder and first degree
robbery because [t]he death of the victim is an element necessary to convict of wanton
murder, KRS 507.020(1 )(b), but is not required to convict of first-degree robbery. Theft or
attempted theft is an element necessary to convict of first-degree robbery, KRS 515.020(1),
but is not required to convict of murder”); Epperson v. Com., 197 S.W.3d 46, 60 (Ky. 2006)
(finding defendant’s double jeopardy rights were not violated on conviction of murder and

. r

11

15

<r>

Case 3:15-cv-00366-RGJ-HBB Document 23 Filed 05/04/20 Page 12 of 14 PagelD #: 704

I "

^ ;

16

r

robbery charges because “[t]he jury instructions pertaining to the offense of murder did not
-6

;■

■

require the jury to find that [defendant] participated in a robbery”).
Bartlett does not argue that being prosecuted under both statutes constitutes double
jeopardy. Instead, Bartlett erroneously asserts that the conclusions reached by the Supreme
Court and the Magistrate Judge mean that “he Was being tried on multiple robberies instead
of the one set forth in the indictment,” because he implicitly was found not guilty on the
robbery associated with the murder charge when the jury did not finding him guilty of murder.
[DE 20 at 675-76]. Yet, this logic does not follow. The same robbery was also-part of the
, factual basis of the lesser included manslaughter charge. [DE 1-1 at 35], Therefore, the jury
2
£

in fact find that there was evidence to support the robbery by finding Bartlett guilty on the
manslaughter charge. Thus, the Court adopts the R&R on this issue.
3- Bartlett is not,entitled to a Certificate ofAppealability.
Finally, Bartlett objects to the Magistrate Judge’s recommendation that a Certificate
of Appealability (“COA”) should be denied as to claims two and five. [DE 20 at 683],
A COA may issue only if the petitioner has made “a substantial showing of thefdenial
of a constitutional right.” 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 483
(2000). “Where a district court has rejected the constitutional claims on the merits . . . [t]he
petitioner must demonstrate that reasonable jurists would find the district court’s assessment
of the constitutional claims debatable or wrong.” Slack, 529 U.S. at 484. When “the district
court denies a habeas'petition on procedural grounds without reaching the prisoner’s
underlying constitutional claim, a COA should issue when the prisoner shows, at least, that
jurists of reason would find it debatable whether the petition states a valid claim of the denial

12

n

Case 3:15-cv-00366-RGJ-HBB Document 23 Filed 05/04/20 Page 13 of 14 PagelD #: 705

of a constitutional right and that jurists of reason would find it debatable whether the district
court was correct in its procedural ruling. Id.
Here, the Court decided Bartlett’s claims on the merits. Therefore, to be entitled to a
COA he must demonstrate “that reasonable jurists would find the district court’s assessment
of the constitutional claims debatable or wrong.” Id. Bartlett has not made this showing.
First, Bartlett has offered no argument specifically addressing his right to a COA. [DE 20 at
683],

Second, no “reasonable jurists would find the district court’s assessment of the

constitutional claims debatable or wrong.” Slack, 529 U.S. at 484.
As to Bartlett’s claim that his due process rights were violated when the court denied
his motion for directed verdict, “[gjiven the doubly deferential standard of review that applies
to this claim, no reasonable jurist could debate the district court’s determination that [Bartlett]
failed to establish that the [court’s] resolution of this claim was contrary to, or involved an
unreasonable application of, Jackson or was based on an unreasonable determination of the
facts.” Stroud v. Brewer, No. 18-2325, 2019 WL 6124886, at *3 (6th Cir. Apr. 2, 2019), cert,
denied, 140 S. Ct. 266, 205 L. Ed. 2d 164 (2019) (upholding denial of COA of petitioner’s
claim that there was insufficient evidence to support her conviction for second-degree murder
where she was not directly involved in the shooting and evidence of intent was
circumstantial); see also § 1, supra. Thus, for the reasons stated above, as to the Bartlett’s
claim that denial of his motion for directed verdict violated due process, Bartlett has not shown
“that reasonable jurists would find the district court’s assessment of the constitutional claims
debatable or wrong.” Slack, 529 U.S. at 484.
Bartlett’s objection that his prosecution violated the Double Jeopardy Clause is
directly contradicted by Kentucky Supreme Court precedent. 'See § 2, supra. Further, when

13
K

17

Case 3:15-cv-00366-RGJ-HBB

Document 23 Filed 05/04/20 Page 14 of 14 PagelD #: 706

Bartlett presented that same argument before the Kentucky Court of Appeals, he was forced
to‘do so pro se “because the Department of Public Advocacy could not in good faith argue
Bartlett’s Double Jeopardy claim before the Court.” [DE 17 at 649], Therefore, Bartlett has
failed to demonstrate that “jurists of reason could disagree with the district court’s resolution
of his constitutional claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.’” Gutierrez v. Gray, No. 19-3514, 2019 WL
6445420, at *3 (6th Cir. Oct. 23, 2019) (finding no error where district court denied COA for
double jeopardy claim directly contradicted by legal precedent).
Thus, the Court adopts the R&R on this issue.
IV.

Conclusion

Bartlett has not objected to any other portions of the R&R. The Court need not review
and may adopt the findings and rulings of the magistrate judge to which no specific objection
is filed. Thomas, 474 U.S. at 149-50. Therefore, the Court adopts the remainder of the R&R.
For these and the reasons set forth above, IT IS ORDERED as follows:
. 1.
2.

Petitioner’s Objections [DE 20] are OVERRULED.
The Magistrate Judge’s Findings of Fact, Conclusions of Law, and

Recommendation [DE 17] is ADOPTED.
3.

The issuance of a Certificate of Appealability under 28 U-S.C. § 2253(c) and

Fed. R. App. P. 22(b) is DENIED.
4.

Petitioner’s Motion to Appoint Counsel [DE 22] is DENIED.

5.

The Court will enter separate judgment under Federal Rule of Civil Procedure

RebecCcjGrady Jennings, District Judgt

14

United States District Court •
May 4, 2020

18

Fi refox

https://doc-advance.lexis.com/documentprint/documentprintclick.:.
20
Girton v. Commonwealth, 2009 Ky. Unpub. LEXIS 10 (Ky., Feb. 19, 2009)

Core Terms

robbery, witnesses, convict, evidentiary hearing, murder

Counsel: BRIEF FOR APPELLANT: Drashawn Bartlett, LaGrange, Kentucky.

BRIEF FOR APPELLEE: Jack Conway, Frankfort, Kentucky, Bryan D. Morrow, Assistant Attorney
General, Frankfort, Kentucky.

Judges: BEFORE: CAPERTON, COMBS, AND VANMETER, JUDGES. ALL CONCUR.

Opinion by: COMBS

Opinion

AFFIRMING
COMBS, JUDGE: Drashawn Bartlett appeals the order of the Jefferson Circuit Court that denied
his motion for relief pursuant to Kentucky Rule[s] of Criminal Procedure (RCr) 11.42. After our
review, we affirm.
On November 9, 2005, Adolfo Jiminez was shot and killed. Multiple witnesses saw a man get
out of a car, shoot Jiminez, and run back to the car. The witnesses recorded the car's license
plate number, which they provided to police. As a result, Bartlett and his co-defendant, James
Girton, were arrested. Both admitted involvement, but each placed greater responsibility on the
other. On January 9, 2006, Bartlett and Girton were indicted for murder, first-degree robbery,
and other charges which are unrelated to this appeal.
On February 12, 2007, a jury found Bartlett guilty of the lesser charge of manslaughter in the
second degree and first-degree robbery. He [*2] received a sentence of twenty-eight years'
incarceration. The Supreme Court of Kentucky affirmed Bartlett's conviction on direct appeal
on February 19, 2009.
On April 23, 2010, Bartlett filed a motion to have his conviction vacated and to hold an
evidentiary hearing pursuant to RCr 11.42. His motion set forth a claim of ineffective assistance
of counsel. On February 1, 2013, the trial court granted the motion for an evidentiary hearing
for the limited purpose of determining whether Bartlett's trial counsel had completely and
accurately conveyed plea offers between the Commonwealth and Bartlett. The hearing was held
on May 31, 2013. On June 12, 2013, the trial court entered an order denying Bartlett's motion
to set aside his conviction. This appeal follows.
In order to prove that he received ineffective assistance of counsel, a convicted defendant
"must show that counsel's performance was deficient" and that he was prejudiced by the
deficiency. Strickland v. Washington, 466 U.S. 668, 687, 104 S.Ct. 2052, 2064, 80 L.Ed.2d 674
(1984). The prejudice must be proven by "a reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding would have been different. A reasonable
probability is a probability sufficient to undermine confidence in the outcome." [*3] Id. at 694.

2 of 4

2/5/2021, 10:36 AM

Firefox

https://doc-advance.lexis.cpm/documentprint/documentprintclick...
19

Document: Bartlett v. Commonwealth, 2014 Ky.App. Unpub. LEXI...

O Bartlett v. Commonwealth, 2014 Ky . App. Unpub. LEXIS
1004
Court of Appeals of Kentucky

December 24, 2014, Rendered
NO. 2013-CA-001218-MR
Reporter
2014 Ky . App. Unpub. LEXIS 1004 *

DRASHAWN BARTLETT, APPELLANT v. COMMONWEALTH OF KENTUCKY, APPELLEE

Notice: THIS OPINION IS DESIGNATED "NOT TO BE PUBLISHED." PURSUANT TO THE RULES
OF CIVIL PROCEDURE PROMULGATED BY THE SUPREME COURT, CR 76.28(4)(C), THIS
OPINION IS NOT TO BE PUBLISHED AND SHALL NOT BE CITED OR USED AS BINDING
PRECEDENT IN ANY OTHER CASE IN ANY COURT OF THIS STATE; HOWEVER,- UNPUBLISHED
KENTUCKY APPELLATE DECISIONS, RENDERED AFTER JANUARY 1, 2003, MAY BE CITED FOR
CONSIDERATION BY THE COURT IF THERE IS NO PUBLISHED OPINION THAT WOULD
ADEQUATELY ADDRESS THE ISSUE BEFORE THE COURT. OPINIONS CITED FOR
CONSIDERATION BY THE COURT SHALL BE SET OUT AS AN UNPUBLISHED DECISION IN THE
FILED DOCUMENT AND A COPY OF THE ENTIRE DECISION SHALL BE TENDERED ALONG WITH
THE DOCUMENT TO THE COURT AND ALL PARTIES TO THE ACTION.

Subsequent History: Rehearing denied by Bartlett v. Commonwealth, 2015 Ky. App. LEXIS
187 (Ky. Ct. App., Feb. 13, 2015)

Prior History: [*1] APPEAL FROM JEFFERSON CIRCUIT COURT. HONORABLE SUSAN SCHULTZ
GIBSON, JUDGE. ACTION NO. 06-CR-000054. '

1 of 4

2/5/2021, 10:36 AM

Firefox

https://doc-advancerlexis.com/documentprint/documentprintclick...
21
On appeal, our review of a trial court's denial of a motion for an evidentiary hearing is limited
to determining whether the allegations are refuted by the record and, if they were true,
whether they would nullify the conviction. Lewis v. Commonwealth, 411 S.W.2d 321, 322 (Ky.
1967). No evidentiary hearing is required if the record on its face contradicts the allegations.
Sparks v. Commonwealth, 721 S.W.2d 726, 727 (Ky. App. 1986).
Bartlett first argues that his counsel failed to provide effective assistance by not presenting
more mitigating evidence during the penalty phase of his trial. During the penalty phase, the
only witness he presented was his mother. Bartlett claims that several other witnesses would
have testified but that his attorney failed to confer with them prior to trial.
Bartlett correctly asserts that counsel has a duty to conduct a reasonable investigation of the
case — including examining the defendant's past for mitigating factors. Commonwealth v.
Bussell, 226 S.W.3d 96, 106 (Ky. 2007). The reasonableness of an investigation is determined
by the surrounding circumstances. Id. at 107.
Bartlett alleges that several witnesses would have provided testimony which would have
resulted in a reduced sentence. Those potential witnesses submitted affidavits after Bartlett's
trial and conviction. Their substance was similar: Bartlett had been [*4] a well-behaved child
and adolescent who had grown into a law-abiding adult; he loved music; he did not have
violent tendencies; he was a responsible father to a young child; and he had been traumatized
by the death of a close friend when both were teenagers. Bartlett also claims that they would
have testified about being his being baptized and obtaining his GED while incarcerated.
However, Bartlett does not provide any evidence that he had ever informed counsel of the
potential witnesses. The trial court even asked if Bartlett had additional mitigating evidence,
but he did not mention or refer to them.
The record shows that Bartlett's mother testified about his daughter, his love of music, and the
progress that he had achieved in jail. Both Bartlett and his former roommate testified about his
love for and involvement in producing rap music. Therefore, Bartlett's allegation of error
relating to the inclusion of that information is moot.

r

The record also contradicts Bartlett's claim that he had never participated in criminal activity
before the robbery and shooting death of Jiminez. It shows that Bartlett participated in drug
rehabilitation and that he wrote to his attorney that he was [*5] under the influence of drugs
at the time he was arrested for the robbery and murder. Drugs were found at the apartment
where he lived, and several witnesses testified that they had used drugs with Bartlett. By his
own admission, Bartlett knew that Girton was carrying a gun on the night of the robbery -- but
he did not leave. Given the amount and strength of the contradictory evidence, we are unable
to conclude that the testimony now proposed would "undermine the confidence in the
■ outcome." See Strickland, supra.
Additionally, it is noteworthy that Bartlett's counsel conducted a reasonable investigation,
including enlisting the services of a private investigator. Invoices show that the investigator
spent more than twenty-three hours with potential witnesses and counsel. Counsel consulted
with the Department of Psychological and Brain Sciences at the University of Louisville, and one
of its doctors was present at trial in case the jury convicted Bartlett of the murder charge.
Because of the surrounding circumstances and the lack of proof undermining the outcome, we
are unable to conclude that counsel failed to conduct a reasonable investigation.
Bartlett's second claim of error is that [*6] his right to protection from double jeopardy was
violated when he was convicted of both manslaughter and robbery. The Commonwealth
accurately points out that this error is unpreserved. Nonetheless, we will address it because of
the serious constitutional implications of double jeopardy violation's. Cardine v. Commonwealth,
283 S.W.3d 641, 651 (Ky. 2009).
A single course of conduct can serve as the basis of conviction of two offenses if the act
"constitutes a violation of two distinct statutes, and, if it does, if each statute requires proof of
a fact the other does not." Commonwealth v. Burge, 947 S.W.2d 805, 811, 43 9 Ky. L.
Summary 12 (Ky. 1996).
The jury in Bartlett's trial was correctly instructed that they could find him guilty of seconddegree manslaughter only if they had found him guilty of the robbery. Conversely, the robbery
instruction relied on the use of a weapon and the infliction of physical injury upon the victim.
Bartlett claims that because robbery was a necessary element of second-degree manslaughter,

3 of 4

2/5/2021, 10:36 AM

c.

Firefox

https://doc-advance.lexis.com/documentprint/documentprintclick...
22
the instructions were redundant and violated his double jeopardy protection.
The Supreme Court has succinctly addressed the correlation of these two offenses:
The death of the victim is an element necessary to convict of wanton murder;[l&|
KRS 507.020(l)(b), but is not required to convict of first-degree robbery. Theft
or [*7] attempted theft is an element necessary to convict of first-degree
robbery, KRS 515.020(1), but is not required to convict of murder. It is the
element of assault (or wanton endangerment) which is common to both offenses.
<
Bennett v. Commonwealth, 978 S.W.2d 322, 327, 45 10 Ky. L. Summary 4 (Ky. 1998).
We cannot conclude that the trial court erred in denying Bartlett's motion to vacate judgment
and to hold an evidentiary hearing.
Therefore, we affirm the Jefferson Circuit Court.
ALL CONCUR.

Footnotes

;

• IT
Bartlett was not convicted of wanton murder; however, death of the victim is also a
necessary element of manslaughter.

Content Type: Cases
Terms: 2014 KY App. Unpub. 1004
Narrow By: Sources: All States Cases
Date and Time: Feb 05,2021 10:36:39 a.m. EST

HI LexisNexis'

4 of 4

Privacy
Policy

Terms &
Conditions

Copyright ©2021
LexisNexis.

R.RELX™

2/5/2021, 10:36 AM

23

No. 20-5580

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
DRAS HAWN BARTLETT,
Petitioner-Appellant,
v.
ANNA VALENTINE, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Jan 08, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: GUY, KETHLEDGE, arid NALBANDIAN, Circuit Judges.
Drashawn Bartlett, a pro se Kentucky prisoner, petitions the court to rehear its order of
November 3, 2020, denying his application for a certificate of appealability.
Bartlett has riot shown that we overlooked or misapprehended a point of law or fact in
denying him a certificate of appealability. See Fed. R. App. P. 40(a)(2).
Accordingly, we DENY the petition.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk
i.

